                          OFFICE OF THE INSPECTOR GENERAL
                          CORPORATION FOR NATIONAL AND
                                COMMUNITY SERVICE




                                         Review of
                     The Corporation for National and Community Service's
                              System Development Life Cycle
                             OIG Audit Report Number 0 1-35
                                    December 11,2000




                                            Prepared by:

                                          KPMG, LLP
                                       2001 M Street, NW
                                      Washington, DC 20036



                     Under Corporation for National and Community Service
                                  Office of the Inspector General
                                 Purchase Order # 200008020002
                    General Services Administration Contract # GS-23F-8 127H



This report was issued to Corporation management on May 25, 2001. Under the laws and regulations
governing audit follow up, the Corporation must make final management decisions on the report's findings
and recommendations no later than November 23, 2001, and complete its corrective actions by May 25,
2002. Consequently, the reported findings do not necessarily represent the final resolution of the issues
presented.
                                                                                    CORPORATION
                            Office of Inspector General                              FOR NATIONAL
                  Corporation for National and Community Service
                                                                                     SERVICE
         Review of the Corporation for National and Community Service's
                         System Development Life Cycle
                        OIG Audit Report Number 01-35



The Corporation has installed several new computer applications and system upgrades in
recent years and continues with plans to develop and install additional major applications
and systems. In accordance with our fiscal year 2001 audit plan for review of the
Corporation's systems, CNS OIG engaged KPMG, LLP to assess the Corporation's
Structured Systems Development Life Cycle (SSDLC) methodology. Their report
concludes that the Corporation's methodology provides a good approach to system
development, but recommends improvements in three areas - goals of the policy,
minimum requirements, and the review of development documents as refinements are
made to the system.

CNS OIG participated in the planning of this engagement and reviewed the report, with
which we concur, and the work papers supporting its conclusions. We provided copies of
the findings and a draft of this report for the Corporation management's review and
comment.

In its response to the report (Appendix B), the Corporation agreed with certain of
KPMG's recommendations. The Corporation's Chief Information Officer indicated that
CNS would incorporate a requirement for a formal test plan and a formal review of CNS
systems during their operational life. However, he stated that he does not plan to
incorporate detailed guidance as to what those plans and reviews will encompass because
the Corporation wanted the guidance to be usable by all Corporation staff for all systems
large and small.




                                                                                Inspector General
                                                                                1201 New York Avenue, NW
                                                                                Washington, I)C 20525
                                             Review of
                        The Corporation for National and Community Service's
                                  System Development Life Cycle
                                          Table of Contents




RESULTS IN BRIEF ..........................................................................................................
                                                                                                                       1

PROJECT OBJECTIVE .....................................................................................................
                                                                                                                    3

METHODOLOGY .............................................................................................................
                                                                                                                     3

THE CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
STRUCTURED SYSTEMS DEVELOPMENT LIFE-CYCLE METHODOLOGY......... 5

CORPORATION SSDLC METHODOLOGY V. NIST SP 500-153 ................................6
   GENERAL   DIFFERENCES ...................................................................................................6
   PHASE-BY-PHASE    COMPARISON       ......................................................................................
                                                                                                                          7
     Conceptual Design Phase (SSDLC) v Initiation Phase (NIST) ..................................8
     Planning Phase (SSDLC) v Definition Phase (NIST).................................................9
     Development Phase (SSDLC) v System Design Phase (NIST) ................................. 10
     Implementation Phase (SSDLC) v Programming and Training Phase (NIST) ........ 11
     Post Implementation and Systems Support Phase (SSDLC) v Evaluation and
     Acceptance Phase NIST)...........................................................................................  12
     Installation and Operation........................................................................................13
MOMENTUM AND WBRS APPLICATION DEVELOPMENT METHODOLOGY
REVIEW ...........................................................................................................................
                                                                                                                              14

SUMMARY OF NOTIFICATION OF FINDINGS .........................................................
                                                                                           15

           NOTIFICATION OF FINDINGS .......................................................
APPENDIX A .                                                                             A- 1

APPENDIX B .CORPORATION RESPONSES TO THE DRAFT ............................B-1
December 11,2000

Inspector General
Corporation for National and Community Service:

At your request, KPMG, LLP (KPMG) performed a Software Development Life Cycle
(SDLC) Review on the Corporation for National Service's (the Corporation) Structured
Systems Development Life-Cycle (SSDLC) Methodology. The primary purpose of this
review was to:

       Assess the adequacy of policy and procedures over the SSDLC as applied by the
       Corporation
       Assess how the Corporation's SSDLC methodology compares to the guidance set
       forth by the National Institute of Standards and Technology (NIST).


Results in Brief

The Corporation's SSDLC methodology provides a good approach to system development,
however we found areas where improvement would be beneficial for clarity and efficient
execution of the policies. The Corporation developed a SDLC methodology in Fiscal Year
2000. The Policy is called a Structured Systems Development Life Cycle (SSDLC) Plan.
Overall, the SSDLC is a sound document. However, it is limited in stated policies and
procedures. While the Corporation tries to place fewer requirements in their plan to allow for
flexibility, increased structure is needed. KPMG's recommendations include:

       In the Corporation's SSDLC methodology, there is no statement of the goals of the
       policy, no enforcement mechanism, and no statement of consequences if the policy is
       not followed.

       We recommend making the existing purpose statement for the SSDLC more specific.
       State specific policy goals, document enforcement mechanisms, and consequences for
       not following the policy, and add documentation references for further guidance.

       A stated goal of the Corporation's SSDLC methodology is to provide guidance in
       producing methodologies specific to the development of applications. This approach is
       very accommodating, but the policy lacks specific minimum requirements and
       provides no uniformity to the application development process. The guidance provided
       is not enough to ensure that the coverage for software development will be adequate.
       Also, the guidance is vague regarding the process of approving the various
                                          Page 1
deliverables.

Specifically missing is a requirement for a Risk Analysis, a System Decision Paper,
and a formal Test Plan in the Corporation's SSDLC methodology. In addition, the
Planning Phase of the SSDLC does not explicitly address the incorporation of
controls, audit capabilities, and security measures.

KPMG recommends the issue of insufficient guidance be addressed by providing
appropriate references either to internal guidance (e.g., sample formats, output from
previous developments) or external documents (e.g., NIST SP 500-153).

Also, require a statement of compliance that describes how the SSDLC will be applied
to a specific development. This statement should be brief and concise, perhaps a one
or two-page form that provides pre-defined options for each phase and space for
comments and rationale for exceptions. This should be reviewed and approved prior to
initiating procurement or authorizing an in-house development effort. Accordingly, an
approval process for specific SSDLC Methodologies and other deliverables should be
established.

A high-level Risk Analysis should be required within the Project Plan prepared during
the Conceptual Design Phase.

The WorkProject Plan should address the rationale for selecting the design approach
chosen for the application.

The System Design delivered as part of the Planning Phase should explicitly address
controls, audit capabilities, and security.

The security and internal controls of every application should be part of the Detailed
System Design. A formal Test Plan should be provided along with the tests and test
data.

The Corporation's SSDLC considers that most development documents are complete
during the beginning phases of the SSDLC. The SSDLC does not have a requirement
to re-visit these documents as refinements are made to the system.

We recommend an Evaluation and Acceptance Phase, similar to that described in SP
500-153, be added after the Implementation Phase. During this new phase the Detail
System Design, the Audit Plan, all manuals and training materials should be reviewed
and updated. Just like the Evaluation and Acceptance Phase in the NIST SP 500-153,
this new Phase should include an analysis of all test results, a security review, and all
necessary sign-offs for the transition to and operation of the new application.



                                    Page 2
KPMG also found that even though the development of the Momentum and WBRS
applications predates the Corporation's SSDLC policy and that the Momentum
implementation is based on a commercial-off-the-shelf (COTS) product, the process followed
during their development and implementation is consistent with the SSDLC methodology
designed by the Corporation.



Project Objective

The objective of this review was to assess the Corporation's SSDLC methodology to
determine the adequacy of policy and procedures over the SDLC as applied by the
Corporation. In addition, KPMG was to determine, through comparison, how the
Corporation's SSDLC compares to the SDLC guidance set forth by the National Institute of
Standards and Technology's (NIST) Special Publication (SP) 500-153.


Methodology

In conducting the review, we were guided by the provisions of NIST Special Publication 500-
153, Guide to Auditing for Controls and Security: A System Development Life Cycle
Approach ( S P 500-153). Using this publication, we evaluated the Corporation's SSDLC
methodology and the way it might have been applied to the development of Momentum and
Web Based Reporting System (WBRS) applications. To make that judgment, KPMG
requested and reviewed documentation relating to the various phases as described in the
Corporation SSDLC. We also examined

       the similarities and differences between SP 500-153 and the Corporation SSDLC;
       the changes in system development approaches since the publication of SP 500-153;
       applicability of both SDLC methodologies; and
       the Corporation's goals.

KPMG considered the fact that the development of both applications predated the Corporation
policy regarding the SSDLC. It also noted that Momentum is a COTS package and WBRS
was developed by an outside third-party under contract to CNS thereby limiting the
Corporation's involvement in the life cycle of the applications.

This report documents a phase-by-phase analysis of the coverage of the Corporation SSDLC.
The report also provides a comparison summary, a table indicating the documentation
obtained for each phase, observations, and recommendations.

Our procedures were performed in accordance with Government Auditing Standards for
performance audits as issued by the Comptroller General of the United States.

                                         Page 3
The Corporation's response to the SDLC review is included in Appendix B. The Corporation
referred to the recommendations in this report as useful and agreed to make roles,
responsibilities, and expectations more explicit in the SDLC. They will incorporate a
requirement for a formal test plan and for a formal review of the system during its operational
life. However, they do not plan to provide detailed guidance as to what those plans and
reviews will encompass.




                                           Page 4
The Corporation for National and Community Service Structured Systems Development
Life-Cycle Methodology

The Corporation's SSDLC methodology is documented in OIT Policy 378 effective April 27,
2000. It was implemented as a policy. Its stated purpose is to "describe a structured
approachfor systems development JFomsystems planning and design through implementation
and support." This policy describes the methodology as a series of steps that can be followed
to build systems faster, at lower cost, and with less risk. Furthermore, the policy mandates
that the Corporation will use the policy as a guideline.

The fact that this SSDLC was issued as a "policy" seems to indicate that the Corporation
wants to establish a uniform approach to system development. However, the documented
expectations are vague. It seems that this process is not to be strictly maintained as long as
the general approach of the SSDLC Plan is followed. While this approach is very
accommodating, it results in a policy and related procedures that do not address the specifics
necessary to adhere to the SSDLC. The policy lacks detail and is not sufficient as stand-alone
guidance in developing specific processes. The SSDLC's criteria for declaring a particular
methodology compliant or non-compliant are ambiguous. No statements regarding the
enforcement mechanism and/or the consequences of not following the policy are made.

The weak areas could be strengthened by adding the following:

       Appropriate documentation references as additional guidance,
       Specific background information to the goals for each phase leaving less to
       interpretation,
       Minimal requirements for compliance; and
       Statements regarding the consequences for non-compliance.

A policy that does not include appropriate structure may not allow the policy to function as
intended. Minimum standards provide consistency and protect the Corporation's interests.




                                          Page 5
Corporation SSDLC Methodology v. NIST SP 500-153

General Differences

NIST SP 500-153, (Guide to Auditing for Controls and Security: A System Development Life
Cycle Approach) requires that the System Decision Paper, Audit Plan, Project Plan, User
Manual, and OperationsIMaintenance Manual be revised in various Phases, while the
Corporation's SSDLC considers them complete after the first revision. The practice of
continually updating the documentation ensures that all documents represent the product in its
current state. It also ensures that, as the development of the application progresses, the end
product will be consistent with the stated requirements.

It is recognized that continual documentation efforts could consume a great deal of resources,
delay development, implementation, deployment, and complicate the task of maintaining
records. The approach in the Corporation's SSDLC may be more practical. However, we
recommend that a mechanism for updating these documents be incorporated into the later
phases of the Corporation's SSDLC.

The SDLC methodology in SP 500-153 places a greater emphasis on planning, design, and
testing than does the Corporation SSDLC. The SP 500-153 also imposes a greater burden on
the development process, but early planning clearly helps

       avoid leaving out controls that are costly or impossible to add later,
       improve code quality and robustness, and
       ensure a smoother conversion and deployment.

KPMG recommends that these issues be sufficiently addressed within documents already
required by the Corporation, such as the System Specification.




                                           Page 6
Phase-by-Phase Comparison

The following table provides a side-by-side comparison of the Corporation's SSDLC phases
against those in NIST SP 500-153.

The phases of the SSDLC vs. the NIST SDLC are:

                                      Corporation                    NIST
                                        SSDLC                        SDLC
                Phase 1           Conceptual Design         Initiation
                Phase 2           Planning                  Definition
                Phase 3           Development               System Design
                Phase 4           Implementation            Programming and
                                                            Training
                Phase 5           Post Implementation       Evaluation and
                                  and System Support        Acceptance
                Phase 6                                     Installation and
                              I                         I   Operation

Each table below is an analysis and comparison of the phases outlined in the Corporation
SSDLC and in NIST SP 500-153.




                                           Page 7
Conceptual Design Phase (SSDLC) v Initiation Phase (NIST)

The Corporation's SSDLC maps rather closely to the NIST SP 500-153 on the initial SSDLC
Phases. In the Conceptual Design Phase, Management identifies the need for a system and
develops a high-level work plan. SP 500-153 defines the Initiation Phase as identifying and
validating the need, exploring alternative functional concepts, evaluating risks and performing
costlbenefit analysis.

          Corporation SSDLC                                 NIST SP 500-153
Conceptual Design -Identify the need for       Initiation - Identify and validate need,
a system and develops a high-level work        explore alternative functional concepts,
plan.                                          evaluate risks and perform costhenefit
                                               analysis.

outputs:                                       Outputs:
       Needs Statement;                              Needs Statement;
       Feasibility/Cost/Benefit Analysis;             Feasibility Study;
       and                                            Risk Analysis;
       High-level WorWProject Plan.                   CostlBenefit Analysis; and
                                                      System Decision Paper.


The Conceptual Design Phase merges the Feasibility Study, Risk Analysis, and CostIBenefit
Analysis required by the Initiation Phase (NIST) into a single document and calls for a high-
level WorldProject Plan. In the SP 500-153, the Project Plan is part of the second phase. The
SP 500-153 also calls for a System Decision Paper that is not required by the Corporation and
is presumably incorporated or implied by the WorWProject Plan.




                                            Page 8
Planning Phase (SSDLC) v Definition Phase CNIST)

In the Planning Phase, system developers and users determine functional, quality, and
architecture requirements of the system identified in the conceptual design phase. They also
design the system to meet those requirements, and plan for development and implementation.
In the Definition Phase (NIST), the participants (participants are not specified) define
functional requirements, initiate planning of the system, identify security measure and control
requirements, develop a project plan for system development management with goals and
activities for all subsequent phases, and develop an Audit Plan.

            Corporation SSDLC                              NIST SP 500-153
Planning -Determine functional, quality,      Definition - Define functional
and architecture requirements of the system   requirements, initiate planning of the
identified in the conceptual design phase,    system, identify security measure and
design the system to meet those               control requirements, develop project plan
requirements, and plan for development        for system development management with
and implementation.                           goals and activities for all subsequent
                                              phases, develop Audit Plan.

Outputs:                                      Outputs:
      Requirements Document;                        Audit Plan;
      Architectural Model;                          Project Plan;
      System Specification;                         Functional Requirements
      Database Design Document; and                  Document;
      Migration Strategy.                            Functional Security and Internal
                                                     Controls Requirements Document;
                                                     Data Requirements Document;
                                                     Data SensitivityICriticality
                                                     Description; and
                                                     Revised System Decision Paper.


While the Corporation's SSDLC Planning Phase involves system developers and users to
chart the process of designing, implementing, and deploying the application, the SP 500-153's
Definition Phase does not define the participants and is still performing preliminary steps, and
aiming at addressing often ignored or postponed issues like controls, security, and audit.
These are important areas to address that are not spelled out in the Corporation SSDLC, but
could well be part of the Requirements Document and the System Specification. KPMG
recommends that covering these areas be mandatory in the Corporation SSDLC.




                                           Page 9
Develovment Phase (SSDLC) v System Design Phase (NIST)

The Development Phase is where the actual code is designed, developed (written), and de-
bugged. Training and reference materials are also developed during this phase.

            Corporation
                -        SSDLC                             NIST SP 500-153
Development -Code and test the system         System Design - Produce System /Design,
designed in the planning phase and prepare    approve security specifications, identify
for training and implementation               Validation, Verification, and Testing goals,
                                              and review and revise Risk Analysis and
                                              Project Plan.

OU~DU~S:                                      Outputs:
    Detailed System Design;                         Revised Project Plan;
    All required code, test data, data              Revlsed Audit Plan;
    conversions, and system tests; and               Systern/Sub System, Program, and
    User and Training Manuals.                       Database Specifications;
                                                     Security and Internal Control-
                                                     Related Specifications;
                                                    Validation, Verification, and
                                                     Testing Plan and Specifications;
                                                     and Revised System Decision
                                                     Paper.


Although the goal of the SSDLC's System Design Phase is similar, it focuses on the design
(no actual code is developed) and requires several specialized deliverables plus updates to the
Project Plan, Audit, and Decision Paper. The NIST requirements are greater and more
specific than those in the Corporation's SSDLC. We recommend that the Corporation's
SSDLC require security, audit, and internal controls be part of the Detailed System Design
and that a Testing Plan be provided along with the tests and test data.




                                          Page 10
Imdementation Phase (SSDLC) v Pronramminn and Training Phase (NIST)
The Implementation Phase is where the actual application is installed, tested, and accepted.
Prior to this Phase, all code is completed and testing has begun. As part of the Implementation
Phase, users are trained and enlisted to perform user acceptance testing.

           Corporation SSDLC                                  NIST SP 500-153
Implementation -Learn and test the              Programming and Training - Produce
system to ensure it meets user                  programs ready for testing, acceptance, and
requirements. If the users accept the           installation, preparation of training, user,
system, the system is installed and/or          and operational manuals, and a preliminary
converted to the new system.                    Installation Plan.

Outputs:                                        Outputs:
      User Acceptance Test; and                       User Manual;
      Implemented/Installed/Tested                    Revised Audit Plan;
      System.                                         OperationsIMaintenance Manual;
                                                      Revised Project Plan;
                                                      Validation, Verification, and
                                                      Testing Plan and Specifications;
                                                      Installation & Conversion Plan; and
                                                      Revised System Decision Paper.


The corresponding NIST Phase stays one step behind by focusing at this time on code
development, development of reference and training materials, updating the Audit Plan, and
the Project Plan. During this phase planning for the tests, the transition, and the conversion is
also completed. Some training is also conducted during this phase.




                                           Page 1 1
Post Implementation and Systems Support Phase (SSDLC) v Evaluation and Acceptance
Phase NIST)
This is the final Phase under the Corporation's SSDLC. Operational policies and procedures
are defined and updated during this Phase. All system maintenance, updates and
modifications, and assessments (auditslreviews) also take place in recurring fashion during
this Phase. These activities all produce output documentation that range from policy
statements to code updates.

           Corporation SSDLC                                NIST SP 500-153
Post Implementation and System                Evaluation and Acceptance - Conduct
Support -Continuously monitor the             integration and acceptance testing, an OMB
implemented system to ensure it measures      A-1 30 review, and produce an approval
up to the expectations and requirements       letter from the responsible accrediting
developed in previous phases and to           official.
enhance the system as needed to increase
the system's useful life.


outputs:                                      Outputs:
       Process andlor policies for                  Revised Audit Plan;
       monitoring system, tracking                  Revised Project Plan;
       modifications, interacting with              Revised User Manual;
       users, requesting modifications, and         Revised OperationsIMaintenance
       maintaining the system;                      Manual;
       System modifications and updates;            Installation & Conversion Plan;
       and System evaluations and                    Test Analysis & Security
       reviews.                                      Evaluation Report; and
                                                     Revised System Decision Paper.

KPMG recommends that a requirement for the tracking and maintenance of these documents
on an on-going basis be added to this Phase. The corresponding development phase under SP
500-153, the Evaluation and Acceptance Phase, focuses on analyzing tests, completing
security evaluation, updating Audit and Project Plans, User Manuals, and Decision Paper. An
equivalent is not explicitly defined in the Corporation's SSDLC, We recommend that such a
Phase be added either as a stand-alone or as the final part of the Implementation Phase.




                                         Page 12
Installation and Operation
The NIST SP 500-153 defines this Phase as implementing the approved operational plan,
continuing operations, budgeting and controlling all changes to the system throughout its life.

    Corporation Structured Systems                    NIST Special Pub 500-153
       Development Methodology
No corresponding phase.                       Installation and Operation - Implement
                                              the approved operational plan, continue
                                              operations, budget accordingly, and control
                                              all changes to the system throughout its
                                              life.

                                               Outvuts:
                                                      Revised Audit Plan;
                                                      Revised Project Plan;
                                                      Revised User Manual; and
                                                      Revised OperationsMaintenance
                                                      Manual.


This phase is more akin to some activities performed during the Post Implementation and
Systems Support Phase defined in the Corporation's SSDLC. The deliverables from this
Phase, other than the installed, operational, and maintained systems are all updates to
documents produced in previous Phases.




                                           Page 13
Momentum and WBRS Application Development Methodology Review

The methodology followed in the development of the Momentum and WBRS applications
was reviewed as part of this Task. The goal was to document the process under the
Corporation SSDLC and NIST Special Publication 500-153 to provide a comparison,
illustrate strengths and possible weaknesses in the Corporation's SSDLC andlor its
application, and make any pertinent recommendations for its improvement.

In this portion of the Systems Development Life Cycle Review, we first compared the
Momentum and WBRS application documentation to the Corporation's SSDLC. Secondly,
we compared the documentation of both applications to the guidance provided by NIST
Special Publication 500-153. It should be noted that the intended scope of the SP 500-153 is
to perform an NIST SDLC audit concurrent with the development of an application.
However, because the scope of this SDLC review was performed on an existing system, this
review focuses on the documentation that was provided in response to the requirements of the
methodology.

The Momentum application is a commercial product implemented by the Corporation to
replace the old financial package, Federal Success. Momentum went into production in
September 1999 and therefore pre-dates the establishment of the Corporation SSDLC's
methodology as Corporation policy (effective 4/27/00). It is also important to note that being
a commercial product; the Corporation had limited control over the actual development of the
software. However, a great deal of documentation was collected showing good coverage of
the areas included in the SSDLC.

Aguirre International, a CNS Training and Technical Assistance Provider, developed the
WBRS application. The initial WBRS pilots were launched in 1998. According to
Corporation Management, by March of 1999 WBRS was in production in all states. This
deployment also pre-dates the establishment of the Corporation's SSDLC methodology.
Nonetheless, the Office of Information Technology (OIT) was able to either present
completed documents or collect information that met the criteria for most SSDLC
requirements. Areas where coverage deficiencies were more noticeable include the lack of
implementation sign-off documentation and the lack of a documented migration strategy.

We found that significant emphasis was placed on important areas such as the development of
manuals, system documentation, and training materials. Considering that Momentum and
WBRS were implemented prior to the effective date of the Corporation SSDLC policy, the
process followed provides adequate coverage.




                                          Page 14
Summary of Notification of Findings

A total of three Notification of Findings (NOFs) were issued during the course of the project.
The table below contains a synopsis of the findings and the recommendations documented in
each NOF located in Appendix A.


Condition                                      Recommendation

In the Corporation Structured Systems          Make the existing purpose statement for the
Development Life Cycle (SSDLC)                 3SDLC more specific. State specific policy
methodology, there is no statement of the      goals, document enforcement mechanisms,
goals of the policy, no enforcement            md consequences for not following the
mechanism, and no statement of                 30licy, and add documentation references
consequences if the policy is not followed.    For further guidance.

A stated goal of the Corporation Structured    The issue of insufficient guidance should
Systems Development Life Cycle (SSDLC)         be addressed by providing appropriate
methodology is to provide guidance in          references either to internal guidance (e.g.,
producing methodologies specific to the        sample formats, output from previous
development of applications. This approach     developments) or external documents (e.g.,
is very accommodating, but the policy          NIST SP 500-153).
lacks specific minimum requirements and
provides no uniformity to the application      Require a statement of compliance that
development process. The guidance              describes how the SSDLC will be applied
provided is not enough to ensure that the      to a specific development. This statement
coverage for software development will be      should be brief and concise, perhaps a one
adequate. Also, the guidance is vague          or two-page form that provides pre-defined
regarding the process of approving the         options for each phase and space for
various deliverables.                          comments and rationale for exceptions.
                                               This should be reviewed and approved
Specifically missing is a requirement for a    prior to initiating procurement or
Risk Analysis, a System Decision Paper,        authorizing an in-house development effort.
and a formal Test Plan in the Corporation's    Accordingly, an approval process for
SSDLC. In addition, the Planning Phase of      specific SSDLC Methodologies and other
the SSDLC does not explicitly address the      deliverables should be established.
incorporation of controls, audit capabilities,
and security measures.                         A high-level Risk Analysis should be
                                               required within the Project Plan prepared
                                               during the Conceptual Design Phase.

                                               The WorkIProject Plan should address the
                                               rationale for selecting the design approach
                                               chosen for the application
                                          Page 15
                                              Recommendation


                                              The System Design delivered as part of the
                                              Planning Phase should explicitly address
                                              controls, audit capabilities, and security.

                                            The security and internal controls of every
                                            application should be part of the Detailed
                                            System Design. A formal Test Plan should
                                            be provided along with the tests and test
                                            data.
The Corporation's SSDLC considers that      An Evaluation and Acceptance Phase,
most development documents are complete similar to that described in SP 500-153,
during the beginning phases of the SSDLC. should be added after the Implementation
The SSDLC does not have a requirement to Phase. During this new phase the Detail
re-visit these documents as refinements are System Design, the Audit Plan, all manuals
made to the system.                         and training materials should be reviewed
                                            and updated. Just like the Evaluation and
                                            Acceptance Phase in the NIST SP 500-153,
                                            this new Phase should include an analysis
                                            of all test results, a security review, and all
                                            necessary sign-offs for the transition to and
                                            operation of the new application.




This report is intended solely for the information and use of the Office of the Inspector
General, the management of the Corporation for National and Community Service, and the
United States Congress and is not intended to be and should not be used by anyone other than
these specified parties.




Partner,   PMG,   LLP




                                          Page 16
                      Notification of Findings                          Appendix A

Notification of Finding: Missing statement of the SSDLC policy goals.


Condition:
In the Corporation Structured Software Development Life Cycle (SSDLC) Plan, there is
no statement of the goals of the policy, no enforcement mechanism, and no statement of
consequences if the policy is not followed.


Criteria:
OMB Circular A- 123, Management Accountability and Control


Cause:
Although the more compact approach used in the Corporation's SSDLC provides a more
favorable balance between documentation and development effort than the NIST criteria,
it lacks some important elements and should be updated. The policy as it stands is
unenforceable, no responsibility over its enforcements is assigned, and there are no
objective criteria for establishing compliance even if it were to be applied.


Risk:
Failing to indicate policy goals, enforcement mechanism, and consequences for not
following a policy will weaken the requirement on all policies and directives. The
purpose of a policy should not be to describe an approach; it should be to mandate
minimum requirements.


Recommendation:
Make the existing purpose statement for the SSDLC more specific. State specific policy
goals, document enforcement mechanisms, and consequences for not following the
policy, and add documentation references for further guidance.

Goals of the policy may include the following: Provide uniformity to the
systems/application development process, speed the development process, require
adherence to standards and best practices, and provide guidance for the on-going
maintenance of applications. The remaining "boiler-plate" should clearly state the
enforcement mechanism (e.g., all procurement packages will be reviewed and required to
include an SSDLC methodology) and the consequences for non-compliance (e.g.,
procurement packages may not be processed without the required SDLC methodology).



                                        Page A- 1
                                                                      Appendix A

                               Notification of Findings


Management Response:

This finding was discussed with Corporation Management on December 14,2000.
Comments from Corporation Management will be deferred until the final report is issued.
The Corporation's CIO does not agree with this finding.




                                        Page A-2
                                                                         Appendix A

                                Notification of Findings


Notification of Finding: The SSDLC is lacking specific minimum requirements and
uniformity.

Condition:
A stated goal of the Corporation Structured Software Development Life Cycle (SSDLC)
methodology is to provide guidance in producing methodologies specific to the
development of applications. This approach is very accommodating, but the policy lacks
specific minimum requirements and provides no uniformity to the application
development process. The guidance provided is not enough to ensure that the coverage
for software development will be adequate. Also, the guidance is vague regarding the
process of approving the various deliverables.

Specifically missing is a requirement for a Risk Analysis, a System Decision Paper, and a
formal Test Plan in the Corporation's SSDLC. In addition, the Planning Phase of the
SSDLC does not explicitly address the incorporation of controls, audit capabilities, and
security measures.

Criteria:
NBS Special Publication 500-153, Guide to Auditing for Controls and Security: A System
Development Life Cycle Approach (SP 500-153).

Cause:
The Corporation System Software Development Life Cycle methodology does not hlly
conform to the criteria above. Although the more compact approach used in the
Corporation's SSDLC provides a more favorable balance between documentation and
development effort than the criteria it lacks some important elements and should be
updated.

Risk:
Without uniform guidance the goal of uniformity might not be achievable, thus providing
no clear reference to decide if a particular methodology complies with the policy or not.

Although a Risk Analysis is no longer a requirement under OMB Circular A- 130, the
Circular requires that the decision to implement security measures and controls be based
on the perceived risks to systems and applications. Without some kind of risk analysis, it
may not be possible to justify the use or non-use of a particular security mechanism
during a security review. Further, an understanding of the risk environment of a particular



                                         Page A-3
                                                                          Appendix A

                                Notification of Findings

application is necessary to assess the appropriateness and cost-effectiveness of any
security measures.

The System Decision Paper, as defined in SP 500-153, discusses several examples of
design approaches considered for application development. The Decision Paper
highlights the advantages and disadvantages of each approach and supports the selection
of the approach chosen. Such a document helps maintain corporate history of the
rationale for specific design decisions. The lack of this documentation may complicate
later efforts to update the application.

If security concerns, audit capabilities, and application controls are not considered and
incorporated into the overall design, they may end up ignored completely or end up
retrofitted into the application. This could result in a weaker, cumbersome application
that may be more costly to implement and operate in a safe manner. The possible lack of
appropriate documentation of security measures and controls could make application
security and controls reviews more difficult and disruptive. It could also complicate
software updates and increase the possibility that further updates may conflict with
existing controls and security mechanisms.

The lack of a comprehensive Test Plan could make the testing and refining of the
application more difficult, time consuming, costly, disruptive, and controversial even if
an appropriate battery of tests has been defined.


Recommendation:
The issue of insufficient guidance should be addressed by providing appropriate
references either to internal guidance (e.g., sample formats, output from previous
developments) or external documents (e.g., NBS SP 500-153, GAO Black Book, etc.).

Require a statement of compliance that describes how the SSDLC will be applied to a
specific development. This statement should be brief and concise, perhaps a one or two-
page form that provides pre-defined options for each phase and space for comments and
rationale for exceptions. This should be reviewed and approved prior to initiating
procurement or authorizing an in-house development effort. Accordingly, an approval
process for specific SSDLC Methodologies and other deliverables should be established.

A high-level Risk Analysis should be required within the Project Plan prepared during the
Conceptual Design Phase.



                                          Page A-4
                                                                        Appendix A

                               Notification of Findings

The WorklProject Plan should address the rationale for selecting the design approach
chosen for the application

The System Design delivered as part of the Planning Phase should explicitly address
controls, audit capabilities, and security.

The security and internal controls of every application should be part of the Detailed
System Design. A formal Test Plan should be provided along with the tests and test data.


Management Response:

This finding was discussed with Corporation Management on December 14,2000.
Comments from Corporation Management will be deferred until the final report is issued.
The Corporation's CIO does not agree with this finding.




                                         Page A-5
                                                                             Appendix A

                                  Notification of Findings

Notification of Finding: The SSDLC is missing a requirement to re-visit
documentation as refinements are made to the system.


Condition:
The Corporation's SSDLC considers that most development documents are complete
during the beginning phases of the SSDLC. The SSDLC does not have a requirement to
re-visit these documents as refinements are made to the system.

Criteria:
NBS Special Publication 500-153, Guide to Auditing for Controls and Security: A System
Development Life Cycle Approach (SP 500-153).

Cause:
The Corporation Structured Software Development Life Cycle methodology does not fully
conform to the criteria above. Although the more compact approach used in the
Corporation's SSDLC provides a more favorable balance between documentation and
development effort than the criteria it lacks some important elements and should be
updated.

Risk:
The documentation prepared in the early stages of development of an application is likely to
depart from what ultimately is implemented. Failure to document the application as it is
delivered, not as designed, will complicate any efforts to enhance it, update it, or review it.

Recommendation:
An Evaluation and Acceptance Phase, similar to that described in SP 500-153, should be
added after the Implementation Phase. During this new phase the Detail System Design,
the Audit Plan, all manuals and training materials should be reviewed and updated. Just
like the Evaluation and Acceptance Phase in the SP, this new Phase should include an
analysis of all test results, a security review, and all necessary sign-offs for the transition
to and operation of the new application.




                                            Page A-6
                                                                      Appendix A

                               Notification of Findings

Management Response:

This finding was discussed with Corporation Management on December 14,2000.
Comments from Corporation Management will be deferred until the final report is issued.
The Corporation's CIO does not agree with this finding.




                                        Page A-7
                                                                                                   Appendix B




                                                                                  CORPORATION

                                                                                  FOR K 4 T I O N A I




April 27,200 I

The Honorable Luise Jordan,
Inspector General
Corporation for National and
  Community Senice
Dear Ms. Jordan:

     We have reviewed the draft audit repon Ke~ierc.uj'the CbrpururionJbr iVurionul und
Community Service '.v System Developn~enrLife C:scle (OlG Report Number 01-35 dated December I I
2000). We arc pleased that the auditors found that the Corporation's SDLC methodology provides a
good approach to system development.

        The report contains some useful suggestions for impro\ing the SDLC document, suggcstions
that we will take. However, we want to point out that the report is based on an aged and obscure
standard and. if fully implemented. would create a documcnt much too bureaucratic for an organization
of our size and a document much more likely to hc ignorcd. The Corporation will incorporate in its
SDLC the useful suggestions in a manner that will maintain the document's readabilit. and its
functionality in our context.

        Your report cites as the standard for judging our SDLC. NIST SP 500 - 153. by which we
assume the auditors meant NSB SP 500 - 153 a Guide to Auditing for Controls and Security: A
Systems Development Life Cycle Approach." No one in the Corporation was familiar with that
document. We could tind no mention of that document in any document on the CIO Council's
extensive web site. With some dificulty. we were able to tind the 1988 document offered for sale at
NIST for $65. Where agencies have been instructed that this is the preferred model for an SDLC. we
do not know. We believe there is a reason no one has heard of the NBS document. It retlects the way
in which large systems were built in the mid 1980s and it is a singularly unreadable document.

       The Corporation drafted its SDLC about a ycar ago after reviewing about six such documents
from other Federal and State entities. Our documcnt was craticd so that it \vould be vety readable for




                                              Page B-1
                                                                                                  Appendix B
                                                                                                           I




our Irtrgcly non-technical audience. We kept it reasonably gcncric so that one policy would be equally
>uitcd for use wirh major s)sten~s.which we develop only every few years. and with minor systcms
that \\c develop more often. We wanted all Corporation staff to he able to. in fact be required to. read
the document. undcrstmd it. and develop well thought out systems designs.

        As supgestcd in the report. we will make roles. responsibilities. and expectations more explicit
in our SD1.C. We will incorporate a requirement for a formal test plan and for a formal review of the
system during its operational life. But we will not provide detailed guidance as to what those plans and
reviews will encompass. As stated earlier. we want this document to serve equally well for systems
large and small. And finally, we will not point the readers of our policy toward the almost
impenetrable NBS document.

        We would like to thank KPMG's staff for their willingness to discuss this work with us during
its development.

                                              Sincerely,                       I




                                              David N. Spevacek
                                              Chief Information Officer


cc:     Wendy Zenker
        Hill Anderson




                                                Page B-2
